No.

IN THE
SUPREME COURT OF THE UNITED STATES

STATE OF LOUISIANA
Respondent
VS.
JUAN D. MATTHEWS
Petitioner
PROOF OF SERVICE
I, Juan D. Matthews, do swear ear dedar that on this date, October 19, 2020, as
required hy Supreme Court Rule 291 hare served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and CERTIORARI on each party top the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mal properly
addressed to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.

District Attorney of Orleans
Leon A. Cannizzaro
619 S. White Street
New Orleans, La 70119
JeiFLandry
Attorney General for the St at e of Louisiana
301 Main Street
Baton Rouge, Louisiana 70802
telephone (225) 342-7552

I declare under penalty of perjury that, the foregoing is true and correct..
Executed on October 19,2020
t

(Signature)

